<html>
<title> - WILL PRESIDENT OBAMA PRIORITIZE THE RELEASE OF PRISONERS OF CONSCIENCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                  WILL PRESIDENT OBAMA PRIORITIZE THE
                   RELEASE OF PRISONERS OF CONSCIENCE
                              IN VIETNAM?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 10, 2016

                               __________

                           Serial No. 114-209

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-098PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Ms. Vu Minh Khanh (wife of Vietnamese prisoner of conscience 
  Nguyen Van Dai)................................................     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Vu Minh Khanh: Prepared statement............................     8

                                APPENDIX

Hearing notice...................................................    18
Hearing minutes..................................................    19
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Ms. Vu Minh Khan's please for her husband from 2007............    20
  Statement from the Honorable Zoe Lofgren, a Representative in 
    Congress from the State of California........................    22
  Statement from the Honorable Alan S. Lowenthal, a 
    Representative in Congress from the State of California......    24
 
                  WILL PRESIDENT OBAMA PRIORITIZE THE
                   RELEASE OF PRISONERS OF CONSCIENCE

                              IN VIETNAM?

                              ----------                              


                         TUESDAY, MAY 10, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 4:01 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order, and good 
afternoon to everyone.
    Among the potential partners in the Trans-Pacific 
Partnership, or TPP, Vietnam is the only country that bans 
independent religious groups, the only country considered one 
of the world's worst violators in Internet freedom. Vietnam 
harbors severe child labor and forced child labor violators and 
regularly jails and tortures those who speak out for human 
rights, political inclusion, or the right to practice their 
religion. There are today over 100 prisoners of conscience in 
Vietnam.
    Nguyen Van Dai spent 4 years in jail and 4 additional years 
under house arrest for defending religious freedom and calling 
for greater democratization in Vietnamese society. He was 
detained again and brutally beaten last December for continuing 
his work. His arbitrary detention undercuts any claim that the 
current Vietnamese leadership can become a trusted U.S. 
partner.
    Prior to his arrest, I had the privilege of meeting with 
him in Hanoi at his law office at 10 Doan Tran Nghiep Street in 
December 2005. I was deeply impressed with his passion for 
truth, his defense of universally recognized human rights, his 
faith, his extraordinary courage, and his deep and abiding love 
for Vietnam. He is truly a patriot.
    Nguyen Van Dai's wife, Vu Minh Khanh, is with us today to 
speak on his behalf and for the other prisoners of conscience 
in Vietnam. Her testimony is especially timely because 
President Obama will travel to Vietnam at the end of this 
month. A steady stream of State Department officials are going 
to Vietnam prior to the trip. In fact, the Assistant Secretary 
of State for Democracy, Human Rights, and Labor, Tom Malinowski 
is in Vietnam today.
    The administration should not try to whitewash Vietnam's 
record prior to the President's trip, but must make absolutely 
clear and unequivocal statements in support of democracy and 
free speech advocates, disfavored religious and ethnic minority 
groups, and human rights defenders.
    The unconditional release of Nguyen Van Dai and other 
prisoners of conscience should be a precondition of the 
President's visit. However, if the President goes without any 
conditionality, I appeal, this subcommittee appeals, to the 
President to demand the immediate and unconditional freedom and 
release of Nguyen Van Dai and the others.
    I also encourage the President to meet with those in 
Vietnam who share our interests in democracy and human rights 
in Vietnam. Doing so will send a clear message about U.S. 
interests to the vast majority of Vietnamese, some 66 percent 
who were born after the Vietnam War ended.
    The administration should also make clear to the Communist 
leaders in Hanoi that the further expansion of trade and 
security partnerships, the lifting of the arms embargo is 
unacceptable until there are significant, verifiable, and 
irreversible improvements in human rights in Vietnam. 
Unfortunately, for the past 7-plus years, the administration 
has failed to deliver such messages to victims of abuse 
anywhere. No tough message was delivered in Cuba, for example, 
despite an escalation of arrests and abuse.
    The administration seems eager to proceed with lucrative 
trade and to lift the ban on lethal arms sales to Vietnam 
without imposing any real conditions. That would be a colossal 
mistake. The administration surely will justify extending these 
generous benefits by arguing that lifting the trade barriers 
and expanding diplomatic engagement with Vietnam will bring 
about human rights and other positive advances. Such arguments 
have long been discredited, however. In China, for example, or 
more recently in Bahrain, and there is evidence such arguments 
failed miserably in Vietnam as well.
    In 2007, after the United States lifted its longstanding 
objection to Vietnam's membership in the World Trade 
Organization, Hanoi responded by launching the first of three 
waves of arrests that jailed more than 100 dissidents and 
introduced sweeping new laws restricting freedom of 
association, assembly, and the Internet. In short, Vietnam's 
WTO membership allowed the Communist government free license to 
jail, torture, and abuse. The pressure was off. Why would they 
not do so again?
    The Communist leadership in Hanoi will take our benefits, 
our trade benefits, our security commitments, and continue 
repressing those seeking political reform and universal 
freedoms. The business of the Communist party is staying in 
power and repressing those who may challenge their power. They 
will not embrace human rights improvements or the rule of law, 
unless it is a condition of better relations with the United 
States.
    Vietnam needs the U.S. markets and security commitments 
much more than the United States needs Vietnam's markets and 
security cooperation. The administration should demand 
additional protections for human rights, Internet freedom, and 
the rule of law as a condition of U.S. assistance. Not doing so 
is shortsighted, misguided, and fails to achieve long-term U.S. 
interests, and it throws the victims under the bus.
    One way to send an important message about U.S. policy 
priorities is to pass the Vietnam Human Rights Act, H.R. 2140, 
which I have reintroduced in this Congress and is now waiting 
further action in the House and Senate. I would note 
parenthetically that past iterations of the Vietnam Human 
Rights Act that I have introduced in previous Congresses have 
passed the House four times, only to be ignored in the Senate.
    The bill stipulates that the United States cannot increase 
nonhumanitarian assistance to Vietnam until the President 
certifies that the Government of Vietnam has made substantial 
progress in establishing human rights protections. The American 
people should not have to subsidize torture or underwrite the 
jailing of journalists, religious leaders, labor activists, or 
advocates of democracy, or Internet freedom.
    The bipartisan Vietnam Human Rights Act will restore the 
right priorities to U.S. policy toward Vietnam. The Communist 
party is not Vietnam's future. That future lies with Nguyen Van 
Dai and many other advocates of political reform and human 
rights who seek our freedoms more than our trade. U.S. policy 
must send the unmistakable message to the Government of Vietnam 
that human rights improvements are fundamental to better 
relations, critically linked to our mutual economic and 
security interests, and will not, I say again, will not be 
ignored or be bargained away.
    I would like to now introduce our very distinguished 
witness today, Ms. Vu Minh Khanh, who is the wife of human 
rights lawyer Mr. Nguyen Van Dai, as I said earlier, who was 
arrested in December, December 16 to be exact, in 2015 under 
article 88 of the Vietnamese penal code for ``conducting 
propaganda against the state.''
    Since his arrest, Ms. Vu has been advocating for his 
release, meeting with international delegates, starting 
petitions, and giving interviews with various media agencies to 
raise awareness of Dai's case. She has volunteered at a church 
in Hanoi and has been doing so since 2009. The church reaches 
out to many vulnerable groups, including those who suffer from 
drug addiction, orphans, and youth. In addition to providing 
support and counseling to those groups, Ms. Vu also assists 
with the daily financial management of the organization and 
works to promote and protect human rights through the church.
    I would like to now yield to our distinguished chairman of 
the full Committee on Foreign Affairs, Mr. Ed Royce.
    Mr. Royce. Well, thank you. I just would start by thanking 
Chris Smith for holding this hearing at exactly the right time 
because now is the time we have to get the attention of the 
international community on these human rights abuses.
    And so, yes, in a few weeks, the President of the United 
States is going to be traveling to Vietnam. And while 
maintaining peace in the South China Sea and improving trade 
ties is an important shared goal, the administration must 
carefully take into account Vietnam's human rights abuses as 
this relationship develops. And that is the conundrum, because 
this has not gotten better.
    I met with the Venerable Thich Quang Do as well as one of 
the other religious leaders in Vietnam when they were under 
house arrest years ago. I heard about the circumstances. I 
check in with human rights NGOs, and as we all know, this 
situation is not improving. Human rights have to be at the very 
top of the President's agenda.
    No matter how the administration frames our relationship, 
the reality, as we all know, is that Vietnam remains a one 
party Communist state with significant human rights abuses. And 
as we will hear today from the wife of an imprisoned human 
rights lawyer and activist--and I want to thank Chris Smith for 
his efforts here to elevate this issue--but as we will hear, 
Nguyen Van Dai, she will share with us the reality that Vietnam 
has a long, long way to go.
    In December, Nguyen Van Dai was badly beaten by 
government--well, I guess we should call them thugs because 
they beat him. And taken into custody. And since that time, 
they took her husband into custody. And since that time, he has 
been denied access to his lawyer and even his family. He sits 
in solitary confinement. His condition is unknown. And Ms. Vu 
is rightly concerned.
    Sadly, Nguyen Van Dai's treatment is far from an isolated 
incident. According to Human Rights Watch, police still 
frequently torture suspects to elicit confessions and sometimes 
use excessive force in responding to protests over evictions, 
land confiscation--because land grabbing is one of the things 
the party does--and other social issues.
    Last year, more than 40 bloggers and rights activists were 
beaten by plainclothes government agents. Not surprisingly, not 
one of these thugs who did the beatings was held responsible. 
Vietnam's penal code criminalizes criticism of the government 
and abuse of democratic freedoms. While other laws restrict 
freedom of religion and the media, bloggers like Anh Ba Sam, 
Nguyen Thi Minh Thuy, and Nguyen Ngoc Gia remain in prison for 
their advocacy of human rights, in prison for what the state or 
what the Communist party calls abusing the rights to freedom of 
democracy.
    Not surprisingly, Vietnam now ranks, in the world, 175th 
out of 180 countries for press freedom. Now, that means Vietnam 
is behind Cuba. It is worse than Saudi Arabia. It is worse than 
Iran. That is why we are here at this hearing.
    Freedom of religion is a significant concern in Vietnam as 
the government continues to restrict religious practice through 
registration requirements, through harassment, and through 
surveillance. Branches of the Cao Dai and Hoa Hao Buddhist 
church, and independent Catholics and Protestants, are banned. 
They face government harassment for their peaceful religious 
practice. The Venerable Thich Quang Do, who both Chairman Smith 
and I have met with, has remained under house arrest since 1998 
for his religious beliefs.
    If the United States and Vietnam are to build a stronger 
relationship, the Vietnamese Government must honor the basic 
human rights of Vietnamese people with respect to freedom of 
speech, religion, and assembly. And that is the message the 
President of the United States needs to send during his 
upcoming visit.
    I wrote to the President last week asking that he carry 
exactly that message. We are all watching. The President's trip 
cannot be a replay of his trip to Havana. We have to have these 
issues addressed.
    And, Mr. Chairman, thank you again for calling this 
important and timely hearing.
    Mr. Smith. Chairman Royce, thank you for your very eloquent 
and very strong statement and consistent support for the human 
rights advocates in Vietnam, and especially today for Nguyen 
Van Dai who is suffering again. He is back into prison, as I 
said in my opening. He is 4 years of prison, 4 years of house 
arrest. And without objection, a very, very, very well-written 
appeal that Ms. Vu made at the time of that first arrest. 
Without objection, I would like to make it a part of the 
record.
    And I yield the floor to Ms. Vu for such time as she may 
consume.

  STATEMENT OF VU MINH KHANH, WIFE OF VIETNAMESE PRISONER OF 
                   CONSCIENCE NGUYEN VAN DAI

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Vu. First of all, I would like to deeply thank Chairman 
Chris Smith and also Chairman Ed Royce having given me this 
precious opportunity to speak.
    My name is Vu Minh Khanh, wife of attorney Nguyen Van Dai. 
We both are Protestants, myself serving our church in Hanoi. 
Dai is a human rights defender now in jail.
    My husband was first arrested in 2007, then sentenced to 4 
years imprisonment plus 4 years of house arrest for violating 
article 88 of Vietnam's penal code for ``conducting propaganda 
against the state.'' My husband was disbarred and his law 
office was shut down.
    After having just completed his house arrest, my husband 
was arrested again on December 16, 2015, and charged under the 
same article 88. My husband has been detained for almost 5 
months now, yet I have not received any information about him. 
He has been held incommunicado and not allowed to meet with my 
family, myself, nor with his defense lawyers.
    Twice a month, I am permitted to bring food to detention 
center B14 in Hanoi for his daily needs, but I do not know if 
he has received any. In fact, I honestly do not know if he is 
really held at B14 because in Vietnam the public security force 
can do whatever they want. If they transfer inmates, they do 
not inform the family members accordingly. For example, this 
has happened to blogger Dieu Cay, and currently happened with 
Tran Huynh Duy Thuc. Thus, if in fact my husband has been 
tortured physically and/or mentally, or given false 
information, I would not know.
    My husband has not been allowed to receive a copy of the 
Bible, a gift from the U.S. Ambassador, Mr. Ted Osius.
    Specifically, 10 days before his arrest, he was attacked 
and severely injured following a human rights training session 
for about 60 people in Nghe An Province, about 300 kilometers 
from Hanoi. Having been attacked 10 days prior, his injuries 
had not healed. He was then arrested on December 16.
    Throughout his human rights activism, my husband was 
constantly followed, threatened, harassed, and beaten. Each 
time Dai was attacked, it related to his work because the 
government did not like it and had requested him to stop doing 
human rights work. However, my husband believes that his 
activities are within his rights under the Vietnamese 
Constitution and international law. Because the police 
constantly follow my husband all day, I believe that the 
Vietnamese Government would know clearly who attacked him. 
However, the government has claimed that they do not know who 
the assailants were when my husband filed a complaint.
    My husband accepted the high risks that comes with these 
activities. And in fact, this is the reality that human rights 
activists in Vietnam have to face constantly.
    My husband also has hepatitis B. Therefore, I am very 
worried about his health condition.
    My husband experienced democracy initially in Germany, 
having witnessed the fall of the Berlin Wall. He then returned 
to Vietnam and studied to become a lawyer. In 1997, my husband 
ran for the National Assembly with the hope that he could speak 
up for the people. In 2000, my husband officially began his 
activism and fought for freedom of religion.
    The first human rights case my husband took was in 2000 
when he defended a member of the Protestant church who was 
brought to court because she tried to stop the police when they 
came to disband a prayer service at the local church.
    Thereafter, my husband provided free legal services to the 
Christians who were oppressed based on their religion, those 
who fought for democracy and human rights who are harassed and 
detained, victims of land grabs, or home loss, and to people 
who were physically attacked and arbitrarily detained. He also 
led training courses about human rights at his law office.
    Since he started his activism in 2000, aside from the 4 
years he was imprisoned and right upon his release, my husband 
immediately continued to raise his voice to protect human 
rights, even when he was still under house arrest. And he 
always fervently tried to fight for freedom of religion, 
freedom of speech, and freedom of assembly through nonviolent 
methods and through providing education on human rights. My 
husband always focused on empowering the youth and helped many 
students who are human rights activists.
    He started classes on human rights for different people 
within society and wrote articles on the rule of law. My 
husband usually worked with many others and connected 
organizations with each other within the country. He also 
advocated with foreign governments, as he had a good working 
relationship with many Embassies in Vietnam and government 
officials from around the world.
    Regarding my husband's arrest in 2007, the police arrested 
him at his law office while he was teaching a class on human 
rights to his students. The topic of the class was based on a 
book on civil society which the American Embassy in Vietnam had 
published.
    As for his arrest this time, it was while my husband was 
leaving the house to meet with the delegation from the European 
Union who were in Vietnam for the annual European Union-Vietnam 
human rights dialogue.
    My husband is currently facing from 3 to 20 years 
imprisonment.
    He has worked hard to protect human rights, and these 
activities cannot possibly be seen as criminal. Therefore, I 
hope that Congress and the U.S. Government, especially 
President Obama on his trip to Vietnam, will help demand for 
his immediate and unconditional release.
    I sincerely thank you for spending time to listen to my 
husband's case. Respectfully.
    [The prepared statement of Ms. Vu follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
   
                              ----------                              

    Mr. Smith. Ms. Vu, I would like to thank you for your 
absolutely compelling testimony that will be heard by many in 
America and hopefully around the world. As you have been 
telling your story, I am glad that other news outlets have not 
only carried your op-eds and your very profound words and 
sentiments, but know that the Congress as well is listening and 
listening very carefully.
    I want to thank C-SPAN for being here so that a larger 
American audience will get to hear you and to realize that 
things are horrific for your husband.
    I do have a couple of questions. And I would like to thank 
Dr. Binh Nguyen for doing the translation today for us. Deeply 
appreciate that. And for your advocacy as well.
    I have a couple of questions. You know, you point out in 
your testimony that your husband was arrested this second time 
as he was leaving the house to meet with the delegation from 
the European Union who were in Vietnam for the annual EU-
Vietnam human rights dialogue.
    First of all, I believe that dialogues are essential, but 
they should not be seen as a substitute for very significant, 
tangible impacts and consequences to countries like Vietnam, 
the Government of Vietnam, that commits egregious violations of 
human rights against its own people. Dialogue is great. We need 
to talk. No one is ever suggesting that talk needs to be 
suspended. But it needs to be linked to real consequences in 
the real world, like the lifting of an arms embargo, like 
greater trade, and other kinds of interactions between the two 
governments.
    I am wondering if any of the members of the European 
Parliament who were here for that dialogue have raised their 
voices in support of your husband after he was arrested, again, 
en route to meet with them to dialogue with him about what the 
government is doing on human rights in Vietnam.
    Ms. Vu. My husband did not meet with the EU delegation and 
I am not sure what would have transpired between them. But I do 
know that after his arrest, they actually contacted me and met 
with me and showed a lot of support.
    Mr. Smith. That is so extremely important. This is a united 
world, not just the United States speaking about these 
universally recognized human rights.
    I would hope as well, as you point out in your testimony, 
that the continued gross mistreatment of your husband and 
others would become the subject of the Human Rights Council, 
the U.N. Human Rights Council, where Vietnam sits in a place of 
dignity as a member of that council. It is breathtakingly 
disturbing that an abuser of human rights could simultaneously 
be an arbiter of how well or poorly other countries are doing. 
First, fix your own house and get that in order. So I think we 
need to press the case there as well.
    Let me ask you, if I could, about how you have been treated 
by the authorities. You mentioned in your testimony that an 
attempt for his defense attorneys to get certificates has not 
been allowed. Could you further elaborate on what that process 
is all about and how you yourself have been treated when you 
advocate on behalf of your husband?
    Ms. Vu. So in short, after his arrest when I hired three 
lawyers, they were not able to meet with Dai, nor able to 
proceed with any legal actions for his case, to prepare for his 
case. Because article 88 falls under a national security law, 
Dai has been denied the right to see his lawyers.
    As for myself, I noticed that there is a camera constantly 
in front of my house following all my activities. I have tried 
to visit my husband and always denied to see my husband when he 
is incommunicado. In addition, I have requested to be able to 
bring him the Bible or have visitation rights, and/or for other 
family members to visit him, but all have been denied. I have 
written complaints, but I have not received any verbal or 
written response from the government.
    Mr. Smith. Can you tell us, to the best of your knowledge, 
how your husband was treated when he was imprisoned the first 
time? Obviously 4 years in prison followed by 4 years of house 
arrest. What were the prison conditions like?
    Ms. Vu. To complete my previous statement, the harassment 
puts a mental stress on me. I know my husband has hepatitis B 
and was beaten severely prior to his arrest. I am constantly 
worried about him, not being able to see him, as he is 
incommunicado. In 2007, he was put in a very small cell with 60 
other inmates. Their water was so contaminated with soil and 
trash that they had to use their socks to filter the water. In 
addition, there was a lot of harassment from the prisoners in 
the same cell. There is also a lot of stress with constant 
observation and surveillance from the government during his 
jail time.
    Mr. Smith. You mentioned that he was beaten by thugs in the 
taxi, or when he was cornered, and that there were--they beat 
him around the face. Were his teeth broken? Did it require 
stitches? Did he get any kind of medical attention?
    Ms. Vu. On the day of Dai's arrest, approximately 30 
security officers stormed our house, giving no specific 
evidence or reason for their actions. During the beating, my 
husband had suffered a lot of beating to the face, especially 
sustained hemorrhage to the eye globes. He was undergoing some 
evaluation, then he was arrested. In addition, his body was 
covered with bruises all over.
    Mr. Smith. Has the American personnel at Embassy Hanoi been 
helpful? Have they tried to visit him? Have they been allowed 
any access to him? Have they even made the attempt?
    Ms. Vu. Immediately after his arrest, I was invited to the 
private residence of U.S. Ambassador Ted Osius, and he gave a 
lot of support and comfort. Especially, he also gave me a Bible 
to give to my husband while he is imprisoned. However, when I 
brought the Bible, it was denied so my husband never received 
the Bible. In addition, the Embassy has mentioned that I could 
meet with them at any time.
    Mr. Smith. Let me just make a couple of final observations 
and ask if you have anything further you would like to say. I 
can assure you we will continue our efforts. I see Dr. Thang 
from Boat People SOS is here today.
    I met, as I mentioned earlier, your husband in Hanoi on a 
human rights trip in 2005 at his law offices. And even though 
he spoke glowingly about his vision of a Vietnam where everyone 
possessed fundamentally recognized human rights, universally 
recognized human rights, there was a total absence of malice on 
his part toward the people in the government.
    When I hear that the government, as you have pointed out, 
has cited article 88 of Vietnam's penal code, conducting 
propaganda against the state, I was with him privately. As a 
matter of fact, some of the people who were en route were 
detained and were not allowed to go to his law office that day 
to meet with me. But there was no propaganda against the state. 
There was a love for the Vietnamese people that was very deep 
and very profound, and I was almost speechless how he could 
have endured so much, known about so much wrongdoing, and yet 
he spoke about human rights in the purest of terms and had such 
a clarity of purpose about him.
    And so the Vietnamese Government needs to know that we are 
inspired by Nguyen Van Dai, and growing numbers of members of 
parliaments, congresses will rally to his defense. And your 
testimony has sent a clear message to the world, not just at 
this venue, but everywhere else where you have spoken. How can 
the government do what they are doing to your husband who only 
desires the best for the country of Vietnam?
    So I want you to know that you have been an inspiration and 
he has been an inspiration. When I met with Mr. Dai, again with 
Dr. Thang, a year later here in my office, again I was touched 
by that absence of malice. He did not engage in tirades against 
Vietnam or its government. He spoke about defending human 
rights and caring for the disenfranchised, the people of faith, 
which I found just incredible. And I do hope that that is not 
lost.
    There are always reformers in any dictatorship or in any 
repressive government. They need to know, when he is away from 
them, when he is talking to Members of Parliaments or 
Congresses in his office or in Washington, his message was one 
of hope for the people of Vietnam. So I want you to know what 
an inspiration your presence here is today.
    If President Obama were sitting here where I am sitting, or 
if the Prime Minister of Vietnam was sitting here, what would 
you say?
    Ms. Vu. If the President were sitting here in front of me, 
I would plead with him to help the people of Vietnam. When he 
fights for human rights in Vietnam, he helps the people. The 
people of Vietnam have suffered a lot through all these years 
of war, and now if the President could help to promote human 
rights in Vietnam, that is what I ask for.
    The reason they arrested my husband, and now I am asking 
for his release while the President is there, is because he 
represents a symbol of nonviolent fighting for human rights and 
democracy in Vietnam, and that is why his release would be 
crucial for the people of Vietnam and that would also be 
symbolic of the President's support for such movement in 
Vietnam.
    And as you have requested, I have just a few more points to 
add, please.
    I would like to present to you, Mr. Chairman, and also the 
U.S. Congress, that I would like to plead the case of my 
husband. I did not understand why he was arrested under the 
penal code article 88 when he is a human rights activist for 
nonviolent movements. And also, when they came to the house, 
they took away the civil society publication that was put out 
by the U.S. Embassy in Vietnam. They also took away any 
materials that my husband has from the United Nations Human 
Rights Council, even the symbol of the dove, which my husband 
believes it represents peace and nonviolent movement for human 
rights. They took everything, envelopes, papers, anything that 
has that symbol on it.
    And then one particular thing that I would like to point 
out is all the T-shirts that has the words ``Hong Kong Today, 
Vietnam Tomorrow,'' were also confiscated as an artifact to be 
used against my husband.
    To share with you my thoughts why I am here, and first 
thank you so much for holding this hearing. This is very 
important. It is because back in 2007, I had written over 
hundreds of complaints to the President, Prime Minister, 
Secretary General, National Assembly leaders, various 
ministries, the court, investigative units, and news outlets 
and never heard anything back. This time I have tried the same, 
written many complaints, and also visited many of the agencies 
just to try and see if anyone would respond to my request. None 
of them had responded in any way verbally or written to me. And 
I have met with a lot of obstruction and ignorance from these 
agencies.
    In addition, I felt that if I would go outside at my own 
risk and raise this voice to the world, then I would be able to 
present my husband's case so that more people would know about 
the situation in Vietnam. And my husband is just one of the 
many people who are in a similar situation.
    Just to recount what happened in 2007, the lawyer only had 
7 days to prepare for his trial back then. Specifically, when I 
went to the investigation unit, they had sent the papers to the 
judicial office, but there was no clear evidence against my 
husband at that time. So, in fact, I am very worried about 
similar situation this time.
    I am really worried that if that repeats, that the lawyers 
for Dai only have a few days just like the previous time, then 
there will not be enough time for them to prepare the trial for 
Dai.
    So I would like to request that my husband be released 
unconditionally and immediately. But in case he does go to 
trial, I really want a fair trial, and also for his lawyers to 
have the time to prepare for his case.
    Thank you, Chairman Smith, for holding this hearing. Please 
accept my deep gratitude, and also to all the staff members who 
have made this possible. I really appreciate all of your caring 
and support throughout this very difficult time for myself, my 
husband, and my family.
    I would like to know as a request whether, Mr. Chairman, 
together with other Members of Congress, could write a letter 
to President Obama asking for his response, first to this 
hearing and also to other requests that have been put in my 
statement previously. Thank you.
    Mr. Smith. Ms. Vu, thank you. We will be more than happy to 
send your statement and a letter encouraging the President and 
appealing to the President to raise your husband's case and 
that of other prisoners of conscience in a specific fashion. 
Not an oblique mention in a wind-up statement or some 
generality. There need to be specific requests made so that we 
can gauge whether or not Vietnam is about to move in the right 
direction or continues its deterioration when it comes to human 
rights.
    There are a number of areas where human rights violations 
are worsening. Human trafficking. Religious freedom. And the 
administration could today designate Vietnam as a CPC country, 
Country of Particular Concern. The facts warrant it. And they 
also could be known as a Tier 3 country when it comes to 
egregious violations of sex and labor trafficking, especially 
labor trafficking in Vietnam. So the President has tools in his 
toolbox, the President of the United States. We hope that he 
uses them.
    We will send, as per your request, your testimony and your 
strong appeal backed up by our strong appeal. We will do it 
immediately. And again, I hope the President is specific. Just 
some general statement about human rights doesn't cut it. It 
hasn't in any other country around the world. It hasn't in 
Vietnam. He needs to be specific.
    So I want to thank you again for your very brave testimony. 
Thank you for your husband's tremendous personal sacrifice for 
the cause of Vietnam human rights and religious freedom. He is 
a truly remarkable man, as are others who are fighting this 
battle with nonviolence and with faith. Know that our prayers 
are with you and with him. We are in solidarity with him, I can 
assure you.
    And I would like to note for the record that we will be 
having a follow-up hearing to this hearing in mid June, latter 
part of June, the 22nd or so. And we will be assessing the 
President's trip and whether or not any progress was indeed 
made.
    So again, I want to thank you so very much for your 
testimony. And, Dr. Binh Nguyen, thank you for your very fine 
translation.
    The hearing is adjourned.
    [Whereupon, at 5 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         
         
         
         
         
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
                    
                    
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
                    
                    

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
